U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 23, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Davalos v. United States, No. 20-5778
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 17,
2020. The government’s response is now due, after one extension, on December 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 4, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5778
DAVALOS, DAVID, SR.
USA

NELSON STARBRANCH EBAUGH
NELSON S. EBAUGH, P.C.
3730 KIRBY DRIVE
STE. 1200
HOUSTON, TX 77098
713-752-0700

